r

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2011
CALVIN EARL BROWN,
Plaintiff - Appellant,
v.
JENNIFER KNOX, Clerk of Superior Court of Wake County,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
New Bern. Louise W. Flanagan, District Judge. (4:19-cv-00108-FL)
Submitted: December 17, 2019

Decided: December 19, 2019

Before KING, FLOYD, and HARRIS, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Calvin Earl Brown, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

r

PER CURIAM:
Calvin Earl Brown appeals the district court’s orders accepting the recommendation
of the magistrate judge and denying relief on his 42 U.S.C. § 1983 (2012) complaint and
denying his motion to reconsider. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. Brown v. Knox,
No. 4:19-cv-00108-FL (E.D.N.C. Aug. 26, 2019 & Sept. 11,2019). We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
EASTERN DIVISION
NO. 4:19-CV-108-FL
CALVIN EARL BROWN,

)
)
)
)
)
)

Plaintiff,
v.

JENNIFER KNOX, Clerk of Superior Court
of Wake Count,
Defendant.

)

ORDER

)
)
)

This matter comes before the court on frivolity review of plaintiffs pro se complaint,
pursuant to 28 U.S.C. § 1915(e)(2)(B). Pursuant to 28 U.S.C. § 636(b)(1)(B) and Federal Rule of
Civil Procedure 72(b),United States Magistrate Judge Robert B. Jones, Jr., entered a memorandum
and recommendation (“M&R”), wherein it is recommended that the court dismiss plaintiffs
complaint (DE 6). Plaintiff filed objections to the M&R (DE 8). In this case, the magistrate judge
correctly determined that plaintiffs complaint must be dismissed due to defendant’s derivative
absolute judicial immunity. See McCray v. Maryland. 456 F.2d 1,4 (4th Cir. 1972). Upon de novo
review of the M&R and plaintiffs objections, the court ADOPTS analysis of the magistrate judge,
which thoroughly and cogently addresses the issues raised by plaintiff in his objections.
Accordingly, plaintiff s complaint is DISMISSED pursuant to 28 U.S.C. § 1915(e)(2)(B). Theclerk
of court is directed to close the case.
SO ORDERED, this the 26th day of August, 2019.

—■

. FLANAOtfN
United States District Judge
Case 4:19-cv-00108-FL Document 9 Filed 08/26/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
EASTERN DIVISION
NO. 4:19-CV-108-FL
CALVIN EARL BROWN,

)
)
)
)
)
)

Plaintiff,
v.
JENNIFER KNOX, Clerk of Superior Court
of Wake County,
Defendant.

ORDER

)
)
)
)

This matter comes before the court on plaintiffs motion for reconsideration (DE 11) of the
court’s order adopting the report and recommendations of United States Magistrate Judge. Where
the court already has considered and rejected the arguments raised, and where plaintiffs motion
does not demonstrate a basis for reconsideration, the instant motion is DENIED. Moreover, where
the court already considered and rejected the same arguments raised in prior case, Brown v. Superior
Court of Wake County, Court Admin.. 4:18-CV-199-FL (E.D.N.C. April 25, 2019), affd No. 191500, 2019 WL 3239670 (4th Cir. July 18, 2019), including in four separate motions for
reconsideration filed therein, the court will not entertain any further such motions for
reconsideration, and any such motions summarily may be denied.

Furthermore, the court

CAUTIONS plaintiff that any motions for leave to proceed in forma pauperis presenting claims on
the same basis as the instant lawsuit and plaintiffs prior lawsuit may be dismissed summarily as
repetitive and vexatious, under 28 U.S.C. § 1915(e)(2)(B).
SO ORDERED, this the 11th day of September, 2019.

V^/)UISE w.

flana\s^n

United States District Judge

Case 4:19-cv-00108-FL Document 12 Filed 09/11/19 Page 1 of 1

r>

FILED: January 30, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2011
(4:19-CV-00108-FL)

CALVIN EARL BROWN
Plaintiff - Appellant
v.
JENNIFER KNOX, Clerk of Superior Court of Wake County
Defendant - Appellee

MANDATE
The judgment of this court, entered December 19, 2019, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

FILED: January 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2011
(4:19-cv-00108-FL)

CALVIN EARL BROWN
Plaintiff - Appellant
v.
JENNIFER KNOX, Clerk of Superior Court of Wake County
Defendant - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
Is/ Patricia S. Connor. Clerk

